No. 20-5734

In the Supreme Court of the United States
ALFRED FLORES III, Petitioner,

v.
THE STATE OF CALIFORNIA, Respondent.

CERTIFICATE OF SERVICE BY COURIER, ELECTRONIC MAIL, & U.S.
MAIL
I, Natalie Rodriguez, Legal Secretary, on behalf of Deputy Attorney General
Christine Y. Friedman, Counsel of Record for Respondent and a member of the Bar of this
Court, hereby certify that on October 15, 2020, a copy of the BRIEF IN OPPOSITION in the
above-entitled case were mailed, in the internal mail collection system at the Office of the
Attorney General at 600 West Broadway, Suite 1800, P.O. Box 85266, San Diego, CA
92186-5266, first class postage thereon fully prepaid, addressed as follows:

FEDEX to:

Robert H. Derham
Attorney at Law
369B Third Street No. 364
San Rafael CA 94901

U.S. Mail to:

CALIFORNIA SUPREME COURT
350 MCALLISTER ST
SAN FRANCISCO CA 94102

(415) 847-5216
Attorney for Petitioner
Alfred Flores

And by Electronic Mail to:
rhderham@gmail.com

I further certify that all parties required to be served have been served.
I declare under penalty of perjury under the laws of the United States of
America the foregoing is true and correct and that this declaration was executed on
October 15, 2020, at San Diego, California.
Natalie Rodriguez, Legal Secretary
SD2020801170
82562161.docx

